Nos. 19-251

In The Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
V.

Petitioner,

XAVIER BECERRA, in his official capacity as Attorney
General of the State of California,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
BRIEF OF PACIFIC RESEARCH INSTITUTE
AND PROJECT FOR PRIVACY AND
SURVEILLANCE ACCOUNTABILITY AS AMICI
CURIAE IN SUPPORT OF PETITIONER
C. DEAN MCGRATH, JR.
MCGRATH & ASSOCIATES
1025 Thomas Jefferson
Street, NW, Suite 110G
Washington, D.C. 20007
(202) 295-2304
cdm7578@yahoo.com

ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com

Counsel for Amici Curiae

QUESTION PRESENTED
Whether the exacting scrutiny this Court has long
required of laws that abridge the freedoms of speech
and association outside the election context—as
called for by NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958), and its progeny—can be satisfied absent any showing that a blanket governmental
demand for the individual identities and addresses of
major donors to private nonprofit organizations is
narrowly tailored to an asserted law-enforcement interest.

ii

TABLE OF CONTENTS
Question Presented ...................................................... i
Table of Contents ......................................................... ii
Table of Authorities .................................................... iii
Interest of Amici Curiae .............................................. 1
Summary of Argument ................................................ 3
Argument ..................................................................... 5
I. The Decision Below Adopts an Erroneous
Approach to First Amendment Scrutiny. .............. 5
A. The Ninth Circuit Diluted Protection
of Political Association Below the
Intermediate Scrutiny that Protects
Commercial Speech........................................... 5
B. The Ninth Circuit Improperly Credits
as an Important State Interest
Discretionary Action by the Attorney
General Not Supported by Clear
Statutory Language. ......................................... 9
II. The Attorney General’s Indiscriminate
Collection of Donor Data Will Inevitably
Be Abused for Political Purposes. ........................ 14
Conclusion .................................................................. 16

iii

TABLE OF AUTHORITIES

Cases
44 Liquormart, Inc. v. Rhode Island,
517 U.S. 484 (1996) ................................................ 6
Carter v. Welles-Bowen Realty, Inc.,
736 F.3d 722 (6th Cir. 2013) ................................ 10
Central Hudson Gas & Electric Corp. v.
Public Service Commission of New
York, 447 U.S. 557 (1980) .............................. 5, 6, 8
Christensen v. Harris County, 529 U.S.
576 (2000) ............................................................. 13
Citizens United v. Schneiderman,
882 F.3d 374 (2d Cir. 2018) ................................. 11
Edenfield v. Fane, 507 U.S. 761 (1993) ................ 3, 7
Greater New Orleans Broadcasting Ass’n
v. United States, 527 U.S. 173 (1999).................... 7
Gutierrez v. INS, 745 F.2d 548 (9th Cir.
1984) ..................................................................... 13
McNally v. United States, 483 U.S. 350
(1987) .................................................................... 10
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ............................................. i, 5
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979) ................................................ 9
Ohralik v. Ohio State Bar Ass'n,
436 U.S. 447 (1978) ................................................ 6

iv

United States v. Robel, 389 U.S. 258
(1967) .................................................................... 15
Wyeth v. Levine, 555 U.S. 555 (2009) ...................... 10
Statutes
11 CAL. CODE REGS. § 301 ......................................... 12
26 U.S.C. § 6104 ........................................................ 12
CAL. CIV. CODE §§ 1798.100 et seq............................. 12
Other Authorities
Charlie Savage & Jonathan Weisman,
N.S.A. Collection of Bulk Call Data Is
Ruled Illegal, NEW YORK TIMES,
May 7, 2015,
available
at
https://www.nytimes.com/2015/05/08/u
s/nsa-phone-records-collection-ruledillegal-by-appeals-court.html................................. 8
Victoria Graham, Taming Big Tech Is
‘Balancing Act’ for California’s Top
Enforcer, BLOOMBERG LAW: BIG LAW
BUSINESS, Aug. 28, 2019, available at
https://biglawbusiness.com/taming-bigtech-is-balancing-act-for-californiastop-enforcer. ......................................................... 12

INTEREST OF AMICI CURIAE1
The Pacific Research Institute (PRI) is a nonprofit
nonpartisan 501(c)(3) organization that champions
freedom, opportunity, and personal responsibility by
advancing free market policy solutions to the issues
that impact the daily lives of all Americans. It
demonstrates how free interaction among consumers,
businesses, and voluntary associations is more effective than government action at providing the important results we all seek—good schools, quality
health care, a clean environment, and economic
growth. Founded in 1979 and based in San Francisco,
PRI is supported by private contributions. Its activities include publications, public events, media commentary, invited legislative testimony, and community outreach.
The Project for Privacy & Surveillance Accountability (PPSA) is a nonprofit nonpartisan 501(c)(4) organization that advocates for greater protection of
1 No counsel for a party authored this brief in whole or in
part, nor did any person or entity, other than amici or their
counsel, make a monetary contribution intended to fund the
preparation or submission of this brief. This brief is submitted
pursuant to the blanket consent letter of Petitioner and written
consent from Respondent. Counsel for the parties were notified
6 days prior to the filing deadline, admittedly less than the 10
days required by rule. The limited delay, however, was harmless in that Respondent had already sought and received an extension of time to file a brief in opposition, and hence the primary purpose of the 10-day notice rule was satisfied. Respondent
will have ample time to address this amicus brief and others.
Counsel for Respondent was candidly asked whether she “would
be willing to grant consent notwithstanding and without objection to the slightly late notice,” and replied that “Respondent
consents to the filing of the proposed amicus curiae brief.”

2

Americans’ privacy and civil liberties from government surveillance programs. PPSA is concerned with
a range of privacy and surveillance issues, from the
monitoring and surveillance of American citizens under the guise of foreign intelligence gathering, to the
monitoring and surveillance of domestic political activity and association under the guise of federal and
state law enforcement. In both instances allowing
the government to collect and access private information concerning political and other activities poses
a tremendous danger of political abuse and should be
carefully cabined both by statute and by the Constitution.
Neither of the above amici is publicly traded or has
any parent corporations, and no publicly traded corporation owns 10% or more of either of the amici.
Amici are interested in this case both as a matter
of constitutional principle and for organizational concerns regarding the confidentiality of their own donors. PRI’s Center for California Reform develops
policy solutions frequently at odds with those favored
by California, and accordingly most of its donors seek
anonymity. Although PPSA is not subject to California’s current disclosure demands, the lax constitutional analysis by the Ninth Circuit could permit far
more aggressive disclosure demands as well, imposed
at the whim of the current or some future Attorney
General.

3

SUMMARY OF ARGUMENT
Amici agree with Petitioner and others that the
decision below applied a standard of review that conflicts with this Court’s cases, ignored the lack of a
genuine interest or need for wholesale collection of
donor information, and ignored the significant adverse consequences of such donor disclosure becoming
public.
Amici separately note that the decision does considerable damage to the First Amendment by applying a standard of review for infringements of the
right to political and other protected association below even that applied to commercial speech. And the
decision incorrectly credited the ad hoc views of the
Attorney General as validly reflecting an “important”
state interest.
Regarding the standard of review, even the more
lenient intermediate scrutiny applied to restrictions
on commercial speech is far more searching than the
lax scrutiny applied by the court below. The restriction in this case would not survive even intermediate scrutiny because the Attorney General has not
demonstrated that the harms he seeks to address are
real, that the wholesale disclosure requirement directly and materially advances his claimed interest in
combatting fraud, or that the infringement on associational privacy is reasonably tailored to that claimed
interest. See Edenfield v. Fane, 507 U.S. 761, 770-71
(1993). Given that lower scrutiny of restrictions on
commercial speech was adopted in part to avoid diluting the stronger First Amendment protections for

4

non-commercial speech, the decision below flips the
entire regime of tiered scrutiny on its head.
Regarding the nature of the interest asserted,
amici maintain that an important state interest must
be reflected in and defined by state legislation, not by
the ad hoc whims of the Attorney General exercising
broad discretion. The very existence of such claimed
discretion suggests indifference to the policy choices
one way or the other, which is not the sign of an “important” interest. It is up to the courts to assign the
appropriate constitutional weight to a claimed interest, not executive officers. Analogous examples such
as the doctrine of constitutional avoidance, the rule of
lenity, federal preemption, and Chevron deference all
suggest that ad hoc agency choices to not have equal
dignity or equal constitutional weight as legislative
choices reflected in statutes. The sweeping and generic interest asserted in this case thus cannot be
deemed “important” for First Amendment purposes.
Finally, amici wish to highlight the separate danger from compelled disclosure of political abuse by the
government itself. While others will discuss the adverse consequences of public disclosure of donor information, the potential abuse by government officials themselves further highlights the importance of
this case. The seminal case of NAACP v. Alabama is
the obvious example of such government efforts to
target those who associate with disfavored groups or
views, but the evidence in this very case shows the
danger from the California Attorney General’s office
as well. This Court thus should grant the Petition to
correct the serious and dangerous flaws of the decision below.

5

ARGUMENT
I. The Decision Below Adopts an Erroneous
Approach to First Amendment Scrutiny.
A. The Ninth Circuit Diluted Protection
of Political Association Below the Intermediate Scrutiny that Protects
Commercial Speech.
Despite purporting to apply “exacting scrutiny,”
App. 60a, the Ninth Circuit defined such scrutiny in a
manner barely beyond rational basis and applied its
diluted test in a manner that is unrecognizable as
any form of “heightened,” much less “exacting,” scrutiny. Petitioner and other expected amici have or will
discuss the inadequacies of the Ninth Circuit’s lax
standards and abandonment of the narrow tailoring
requirement. See, e.g., Pet. 17-33.
Amici here agree with Petitioner and others that
the scrutiny applied below is constitutionally inadequate and conflicts with decades of precedent including NAACP v. Alabama, 357 U.S. 449, 460-61 (1958).
They write separately, however, to note the additional discordance that the decision below actually reduces the level of protection for political association below the protection given to commercial speech.
In Central Hudson Gas & Electric Corp. v. Public
Service Commission of New York, 447 U.S. 557, 564
(1980). this Court controversially applied a lower level of scrutiny to commercial speech than to political
speech, adopting a so-called intermediate level of
scrutiny. While such diluted protection has been
much criticized, some have defended it as a way of

6

ensuring that First Amendment protection of core political speech and association remained strong and
undiluted. Compare 44 Liquormart, Inc. v. Rhode Island, 517 U.S. 484, 518, (1996) (Thomas, J., concurring in part and concurring in judgment) (criticizing
Central Hudson test as too lenient), with Ohralik v.
Ohio State Bar Ass’n, 436 U.S. 447, 456 (1978) (“parity of constitutional protection for commercial and
non-commercial speech alike could invite dilution,
simply by a leveling process, of the force of the
Amendment’s guarantee with respect to the latter
kind of speech.”).
Despite the concern to not dilute the stringent protection for non-commercial speech that gave rise to
“intermediate” scrutiny for commercial speech, the
decision below turns all of that on its head by reducing the level of protection for non-commercial expressive association well below that accorded to commercial speech. Indeed, even as intermediate scrutiny
has proven itself a vigorous check on arbitrary and
unsupported government encroachment on commercial speech, the supposedly “exacting” scrutiny applied by the Ninth Circuit has proven a toothless
guardian of political and other expressive association.
In commercial speech cases, this Court has held
that state burdens on First Amendment rights will be
sustained only if the State asserts a “substantial interest” and its means are “designed carefully to
achieve the State’s goal.” Central Hudson, 447 U.S.at
564. That “burden is not satisfied by mere speculation or conjecture; rather, a governmental body seeking to sustain a restriction on commercial speech
must demonstrate that the harms it recites are real

7

and that its restriction will in fact alleviate them to a
material degree.” Edenfield, 507 U.S.at 770-71.
In the decision below, by contrast, the Ninth Circuit failed virtually every aspect of even such intermediate scrutiny. For example, it failed to require a
showing of real rather than speculative harms, or
that wholesale donor disclosure would solve any
speculative concern with fraud and ignored extensive
evidence and findings to the contrary. See App. 45a
(in 500 investigations over 10 years “only five instances involved the use of a Schedule B” and in each
one the relevant information “could have been obtained from other sources”); id. (testimony that “[t]he
Attorney General does not use the Schedule B [donor
information] in its day-to-day business”).2 Such “ ‘ineffective or remote support for the government’s purpose,’ ” is insufficient to uphold a restriction even under intermediate scrutiny. Edenfiled, 507 U.S. at 770
(citation omitted); id. at 771 (State presented “no
studies that suggest * * * the dangers of fraud” that it
claimed to fear.”).3 In this case, the restriction upheld is not based on even the slightest evidence that
See also App. 45a (evidence “demonstrated no harm” the
State would suffer from not collecting donor information); App.
47a (donor disclosure requirement “demonstrably played no role
in advancing the Attorney General’s law enforcement goals for
the past ten years”) (emphasis added).
2

3 The lack of need for wholesale information collection is reflected in the fact that the Attorney General only rarely seeks it
through ad hoc requests and has neither sought broader legislation nor adopted a formal rule. See Pet. 9-11. Such an inconsistent approach to a claimed interest casts doubt on both its
genuineness and its importance. See Greater New Orleans
Broadcasting Ass’n v. United States, 527 U.S. 173, 189 (1999).

8

any particular donor (or any particular charity) is a
fraud threat and thus represents no more than a generalized and prophylactic claimed interest.4
Also deficient is the Ninth Circuit’s failure to require even a semblance of narrow tailoring. Rather,
the court required only that the challenged disclosure
demand be “substantially related” to “a sufficiently
important governmental interest,” and ignored evidence that “the Attorney General can achieve his
goals through other means.” App. 15a-23a. But once
again, even intermediate scrutiny would reject such
an approach. Central Hudson, 447 U.S. at 564 (if interest “could be served as well by a more limited restriction on commercial speech, the excessive restrictions cannot survive”).

4 The Ninth Circuit’s willingness to allow the creation of a
huge data pool in which the California Attorney General can
conduct fishing expeditions, without any individualized suspicion of particular charities or donors, raises not just First
Amendment violations, but Fourth Amendment concerns as
well. There is no search warrant authorizing such sweeping and
continuous information collection, nor any basis for seeking or
obtaining one. There is only a pool of ideology-matched donor information acting as a gigantic attractive nuisance waiting to be
abused by a politically ambitious and/or ethically challenged politician in the Attorney General’s office. See infra at 14. It also
calls to mind the bulk collection, storage, searching, and unmasking of call data records incidentally involving American citizens even where such records have no genuine foreign intelligence purpose. See Charlie Savage & Jonathan Weisman,
N.S.A. Collection of Bulk Call Data Is Ruled Illegal, NEW YORK
TIMES,
May
7,
2015,
available
at
https://www.nytimes.com/2015/05/08/us/nsa-phone-recordscollection-ruled-illegal-by-appeals-court.html.

9

Lacking sufficient support to satisfy even the intermediate scrutiny applied to commercial speech,
the Ninth Circuit has reached its result only by severely weakening the protections for core First
Amendment associational rights established in
NAACP v. Alabama and its progeny. This Court
should grant certiorari to correct the Ninth Circuit’s
erroneous and bitterly ironic dilution of First
Amendment protection for political and other noncommercial association.
B. The Ninth Circuit Improperly Credits
as an Important State Interest Discretionary Action by the Attorney General
Not Supported by Clear Statutory
Language.
In determining whether an interest asserted in litigation is an important, substantial, or compelling
state interest, courts should be attentive to the source
of the claimed interest and whether it genuinely represents the policy choice of the State, qua State, rather than the choice of individual politicians with
their own agendas. The usual way to do that is to
look to the legislature and any express statutory language asserting an interest and prioritizing it above
potential constitutional concerns. That basic principle
is the essence of the constitutional avoidance doctrine, the rule of lenity, the anti-delegation doctrine,
and others.5 Similarly, federal agency actions do not
Cf. NLRB v. Catholic Bishop of Chicago, 440 U.S. 490, 507
(1979) (“in the absence of a clear expression of Congress’ intent
* * * we decline to construe the Act in a manner that could in
turn call upon the Court to resolve difficult and sensitive ques5

10

preempt state law when they are not pursuant to
clear statutory authorization or rulemaking. See,
e.g., Wyeth v. Levine, 555 U.S. 555, 587 (2009)
(Thomas, J., concurring in the judgment).
While California, of course, is free to interpret its
own laws and confer vast discretion on its law enforcement officers that might otherwise be improper
at the federal level, such open-ended discretion and
the policy choices made pursuant should not rise to
the level of a “substantial” or “important” interest as
a matter of federal constitutional law. Indeed, in conferring open-ended and unguided discretion on law
enforcement, the legislature has effectively declared
that it and the State as a whole do not have a significant interest in the outcome. Indeed, such discretion
necessarily includes the option not to seek wholesale
information, suggesting that the State is indifferent
as to which choice the Attorney General might make.
If the State is thus indifferent to the choices made by
the Attorney General, those choices can hardly represent an important interest of the State itself.
tions arising out of the guarantees of the First Amendment”);
McNally v. United States, 483 U.S. 350, 359-60 (1987) (rule of
lenity providing that “when there are two rational readings of a
criminal statute, one harsher than the other, [the Court is] to
choose the harsher only when Congress has spoken in clear and
definite language”); Carter v. Welles-Bowen Realty, Inc., 736
F.3d 722, 731 (6th Cir. 2013) (Sutton, J., concurring) (“Making
something a crime is serious business. It visits the moral condemnation of the community upon the citizen who engages in
the forbidden conduct, and it allows the government to take
away his liberty and property. The rule of lenity carries into effect the principle that only the legislature, the most democratic
and accountable branch of government, should decide what conduct triggers these consequences.”).

11

Even assuming the Attorney General has general
discretionary authority under California law to seek
wholesale collection of donor records, that would at
best make the claimed choice a permissible one but
would say nothing about its weight. Rather than allow the constitutional weight of an interest to turn on
the mere assertion of a single state officer, it is the
responsibility of this Court to determine the constitutional nature and weight of any asserted interest for
First Amendment purposes. This Court should not
defer to the assertions of the Attorney General on
such a constitutionally significant question, but
should, at a minimum, demand stronger evidence
that any asserted “important” interest is a choice
made by the State itself through its legislature. In
this case there was no such evidence of a legislative
policy choice that would somehow support the wholesale invasion of First Amendment rights sought here.
Particularly inadequate was the Ninth Circuit’s
bald assertion that the wholesale donor disclosure requirement “ ‘clearly further[s]’ the state’s ‘important
government interests’ in ‘preventing fraud and selfdealing in charities * * * by making it easier to police
for such fraud.’ ” App. 22a (quoting Citizens United v.
Schneiderman, 882 F.3d 374, 384 (2d Cir. 2018)).
Nowhere in the California Code is there express or
even implied authorization to further such a generic
law enforcement interest by encroaching on First
Amendment rights. Indeed, despite its asserted “importance,” the mandate was not divined from the language of one of the Attorney General’s existing regulations until ten years after the regulation was

12

adopted.6 And precisely because this claimed interest
is not embodied in a statutory command, it may not
even be the policy of the Attorney General tomorrow,
or of the next Attorney General to inhabit the office.
Such a discretionary and variable policy choice not
supported by clear statutory language cannot possibly be counted as an “important” state interest, regardless whether it reflects a permissible exercise of
discretion under California law.7 Such amorphous,
variable, and insufficiently established state interests
provide an inadequate anchor for the narrow tailoring required under the First Amendment.
An analogous situation arises in cases involving
constitutional avoidance, federal supremacy, or other
instances that potentially encroach on important
See Pet. 8-10. The regulation at issue, 11 CAL. CODE REGS.
§ 301, requires charities annually to file IRS Form 990, but
makes no mention of Schedule B, containing the names and addresses of donors. By federal statute, this information is nonpublic. With limited exceptions, it is a crime for the IRS to disclose it even to state regulators.
26 U.S.C. §§ 6104(b),
6104(c)(3).
6

7 A better source for what interests the State deems “important” is the California Consumer Privacy Act of 2018, CAL.
CIV. CODE §§ 1798.100 et seq. (the “Consumer Privacy Act”),
which takes effect on January 1, 2020. The law will protect personal information such as names and addresses from unwanted
storage in company databases. It is particularly telling that the
two California Attorneys General who have successively been
Respondents in this case show no concern for donor privacy yet
have both publicly criticized the invasion of privacy by “Big
Tech,” including Google, Facebook, and others. Victoria Graham,
Taming Big Tech Is ‘Balancing Act’ for California’s Top Enforcer, BLOOMBERG LAW: BIG LAW BUSINESS, Aug. 28, 2019, available at https://biglawbusiness.com/taming-big-tech-is-balancingact-for-californias-top-enforcer.

13

rights or interests. Thus, in the constitutional avoidance context, if a law can be read to avoid a constitutional encroachment it will be read in that manner
and even agencies will lack discretion to force a constitutional showdown absent clear direction from the
legislature. Gutierrez v. INS, 745 F.2d 548, 550 (9th
Cir. 1984) (Kennedy, J.) (citation omitted) (constitutional avoidance doctrine “must bind not only the
courts, but also the administrative agencies which
they review, for if it did not, such agencies, ‘by unnecessarily deciding constitutional issues, would compel
the courts to resolve such issues as well.’ ”). Similarly, in the Chevron context, many expressions of administrative or executive policy will not be given substantial weight if they are not embodied in clear statutory language or at least in full-blown administrative rulemaking.8 The ad hoc choices of an agency
are not entitled to deference in general, much less
deference that encroaches upon First Amendment
protections.
While Chevron and its progeny do not, of course,
bind the States, they are instructive of how one determines the genuineness of a position taken by an
agent of the State rather than by the State (writ
large) speaking in full throat through its legislature.
Just as courts will not defer to ad hoc discretionary
8 Chevron deference typically applies only to statutory interpretations set forth in regulations formally issued after notice
and comment. Informal interpretations, such as those “contained in policy statements, agency manuals, and enforcement
guidelines,” lack the force of statutory law, and “do not warrant
Chevron‐style deference.” Christensen v. Harris County, 529
U.S. 576, 587 (2000).

14

choices of federal executive agents seeking to force a
constitutional conflict, they should not accord the
constitutional significance of an “important” state interest upon the musings or mere desires of the Attorney General lacking express support of a specific
statute.
Non-legislatively defined “governmental interests” should not be deemed sufficiently important to
justify burdening the First Amendment rights of individuals and associations.
II. The Attorney General’s Indiscriminate Collection of Donor Data Will Inevitably Be
Abused for Political Purposes.
Apart from the violence the decision below does to
the First Amendment, the Petition raises an important question that warrants this Court’s review
given the potential abuse of power in the data collection regime approved by the Ninth Circuit.
The Ninth Circuit erroneously deemed the data
collection below to be only a “modest burden” on First
Amendment rights. App. 104a, 109a. Others will discuss the dangers of disclosure, whether through bad
luck or incompetence, and the threats to donors who
are thus exposed.
Amici here instead highlight another serious
threat from such infringement of associational privacy – the use of the information by government itself
for political purposes. Apart from concerns with public disclosure and harassment or violence from members of the public, many donors have ample reason to
fear retaliation or harassment directly from the Attorney General’s office even without broader disclo-

15

sure. In this case, for example, there was evidence of
potential retaliation against Petitioner for asserting
its First Amendment rights in this very case. See
Plaintiff’s Proposed Findings of Fact and Conclusion
of Law, Case 2:14-cv-09448-R-FFM, (M.D. Cal.), Pacer Doc. 177-1, Filed March 14, 2016, ¶¶418-20 (testimony regarding Attorney General’s Office attitudes
towards Petitioner in the wake of this lawsuit); see
also id. at ¶¶ 405-417 (describing evidence of political
bias of Attorney General, fear or retaliation, and political targeting of donors).
Such concern with political abuse is hardly novel
or limited to the particulars of this case. Indeed, one
of the very points of associational privacy is to protect
people from a hostile government. The most obvious
example is NAACP v. Alabama itself, as well as targeting of persons affiliated with communist groups.
See, e.g., United States v. Robel, 389 U.S. 258, 262263 (1967) (attempt to penalize citizens associated
with communist groups).
The Ninth Circuit failed even to address the risk of
harassment and intimidation faced by donors to charitable organizations whose policy views are disfavored by the Attorney General and others in California government. And even if one were charitably to
believe that past, present, or future California Attorneys General are above such political abuse of their
perceived adversaries, one need only recognize that if
the decision below is indeed the proper test for invasion of donor privacy, it will be the rule applied in
other States as well, with political officers having a
variety of views and a variety of opponents.

16

The protection of liberty requires recognition that
jackboots come in all sizes and colors—black, red,
blue, and many variations in between. At any given
time, some groups will be out of favor with the current regime, and the temptation to abuse government
power will always exist. Such abuses can be aimed at
persons who support opponents, opposing viewpoints,
or even nominally friendly rivals. Even if the donor
information being collected by the Attorney General
is not publicly disclosed, it can easily and quickly become fodder for a politician’s enemies list.
The long roster of such abuses of power in the history of American government teaches that it is not
unreasonable paranoia but constitutional prudence
that should lead us to avoid, wherever possible, giving those in power weapons with which to intimidate
or target those who disagree with them. The First
Amendment is one important bulwark against such
abuses and the decision below creates cracks in that
bulwark that are worthy of this Court’s review.
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for a writ of certiorari.

17

Respectfully submitted,

ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
C. DEAN MCGRATH, JR.
MCGRATH & ASSOCIATES
1025 Thomas Jefferson
Street, NW Suite 110G
Washington, D.C. 20007
(202) 295-2304
cdm7578@yahoo.com
Counsel for Amici Curiae
Dated: September 25, 2019

